No.

IN THE
SUPREME COURT OF THE UNITED STATES

MO

}ff RACUS MO f.ITRAE L SIIABILZZ,
Petitioner,
v.

UNITED STATES OF AI\,IERICA,
Respondent.

PETITON FOR WNIT OF CERTIORANI TO
THE COURT OF EPPEEIS
FOR THE FINH CINCUIT

APPENDIX TO THE PETITION FOR WRIT OF CERTIORARI

James Bailey Halliday, Esq.*
Counsel for Petitioner
L2257 Ste. B Ashley Drive
Gulfport, MS 39503
Qz$ 861-b7be
jhallidaye sq@cable one. net

*Member Supreme Court Bar
And CJA Appointed Counsel

July 8, 202I

APPENDIX "A"

Case:

20-60687

Document:

00515830642 Page: 1 Date Filed: 0412112021

Wnite[ Ststeg [,surt of gppPsld
tor tbe frtttb Wirtutt

United States Court of Appeals
Fifth Circuit

FILED
April21,2021
No.20-60687
Summary Calendar

Lyle W. Cayce
Clerk

UNrrBo Starns on Aunntca,
Plainriff-Appellee,
'Dersus

MoNrenrus MoNTRAEL Sues e.zz,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:19-CR-52-1

Before

ClnunNt, HtccrNSoN,

and ENcnLHARDT, Circuit Jud,gu.

Pnn CUnIAM:*
Pursuant to a plea agreement, Montarius Montrael Shabazz pleaded

guilty to one count of possession of a firearm by an unlawful user of a
controlled substance. The district court sentenced Shabazz to 90 months of

*

Pursuant to 5TH Crncurt Rurn 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in

5tn CIRcutr Ruln

47.5.4.

Document: 00515830642

Case:20-60687

Page:2

Date Filed: 0412112021

No.20-60687

imprisonment, which was within the lower half of the applicable guidelines
range. He now appeals his sentence.

Although his plea agreement contained an appeal waiver, Shabazz
breached the
argues that his appeal is not barred because the Government
his base offense
agreement by supporting the wrong standard to determine
level and thereby eviscerated its promise to recommend that the court
guidelines
impose a sentence within the lower 50 percent of the applicable
range. Shabazz further claims that the sentence imposed is procedurally
unreasonable"
is
Shabazz's argument concerning a breach of his plea agreement
court.
subject to plain error review because he did not raise it in the district
(5th Cir. 2017). The argument
See United, States u. CIffi 857 F.3d 2g2,2gT

error. See Puckett r:. United States,556 U.S.
l2g, L35 (2009). At sentencing, the Government complied with the

fails because he does not show

unambiguous terms of the plea agreement by recommending that Shabazz be
sentenced within the lower 50 percent of the guidelines range. The language
of the plea agreement and the plea agreement supplement does not contain
any reference to relevant conduct, Shabazz's base offense level, or any

government duty related to the proper calculation of the guidelines range.
The attempt to hold the Government to promises that are not contained in
the plea agreement amounts to an unreasonable understanding of the plea
agreement

.

See United, States v.

Hinojosa,T49 F.3d 407, 4L3 (5th Cir.

United, States v. Harper,643 F.3d 135, 139 (5th

zha);

Cir. 2011)'

Shabazz's appeal waiver, which the Government invokes, bars his
challenge to the procedural reasonableness of his sentence. See United States
v. Bond,,414

F.3d 542,544 (5th Cir. 2005). Accordingly, the Government's

Case:

20-60687

Document:

00515830642 Page:

3

Date Filed: Q412112021

No.20-60687

request to dismiss the appeal is granted. See Unhed States v. Storyr 439 F.3d

226,230 n.5 (5th Cir. 2006).

DISMISSED.

APPENDIX "B"

53 Filed 0712

Case 1:l-9-cr-00052-HSO-RHW Document
AO 24Jlt{lt*v. 01/18) Jtrigmenr in

I

Crirninqt

Ce sc

$hset I

UNrrBn Srerps Drsrrucr CoURT
Scruthern District of Mississippi

UNITED STATES OF AMERICA
v.

JUDCMENT IN A CRIMINAL CASE

MONTARI US MONI"RA BL S}IA BAZZ

Case

Number: I ;I9cr5?l-tsO-RHW-00I

USM Nurrrber: 21466-043
Jnmes I;lrrlliday, Sr.
Defendunt's Altomsy

THX DEFENDANTI

coufi(s)

Count ls of the Superscding lndictmenl

S

pleadcd gailry to

E

pleaded nolo contendere to count{s)

which wns accepted by the court.

C was found guilty

orr count(s)
after a plua of not guilty.

!
The defendan: is adjudicnted

guilty olrhesc offcnscs;

Title & Sc$ion

ll

N$turr of Offease

U.s.C. $ 92?(g)t3)

Possession

of a Fireqnr by an Unlawfirl User of

a

0ff{rnsc Ilndetl

Count

ll:0120 r 9

ls

Controlled

0

Silbstance

The dcfendanl is scntcnccd as provided in pagr;s 2 through
the Sealencing Reform Act

I

of

olthis judgnrcnt. Thc scntcrlcc is irnposcd pursrnilt t0

1984.

The dcfcndant ha$ bc$r fourd not guilty on count(.s)

fi Counr{s)

1

.,. It is. otdcrcd

M ir

F

are dismisscd on the motion

of rhe Unireti Starss.

{ra1.t[c dcfcndaltt.nrtrsl notily thc Unitccl Sliltcs ilttorncy lor this ciistrict rvithin 30 duys of anv chlrnsc of nantc^ rcsiclcnce.

ue oelendant must oottfy fhe court attd United Stiltes cttonrcy of ruaterirl charrges iir euorroniic circunutauc'bs
July 23, 2020

-

tbrc ofimposition;fJu{lsrr"r

---

- -"

The Hororable l-lalil $uleyman Ozerden, U.S. District Judge
**"-"*
liiiirc eiil'i'ii1i-,lf JiidH'

l/z,t lzoto

liorc*7*

Case 1:19-cr-00052-HSO-RHW Document
AO 2458(Rev. 02/l E) Judgmenr in
Sbcet 2

-

a

53 Filed 0712412O Page 2 of 7

Criminul Case

lmprisolmcnt
Judgrnent

DEFENDANT: MONTARIUS MONTRAEL SHABAzz
CASE NUMBER: t:t9cr52HSO.RHW-001

-

Pagc

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a totat term of:
ninety (90) months as to Count ls of the Superseding lndictrnent.

d

fn"

court nrakes the following recommendations to the Bureau of Prisons:

The Court recommends that the defendant be designated to the facility closest to his home for which he is eligible. It is further
recommended that the defendant be allowed to participate in any drug treatment program avaitable in the Bureau of Prisons for which he
is deemed eligible.

Et

ttre defendanr is remanded to the custody of the Unired

E

ttrc defendant shall surrender to the united

States Marshat.

States Marshal for this districr:

Eat
E a,m. E p.nr.
tr as notified by the Unired States Marshal,

E

the defendant shall sunender for service ofsentence

E
tr
tr

on

at the institution designated by thc Bureau

ofprisons:

beforc
as

notified by the United States Manhal, but no later than 60 days from tlre date of sentencing.

as

notified by the Probation or pretrial Services Oflice.

tr
RETURN
I have executed this judgment as follows:

Defendant delivered on

,

with

a

ccrtificd copy of this judgment.

uNlrEDsrffi
Bv

DEpuryuNnepsrffi

case 1:19-cr-00052-HSo-RHW Document

53 Filed 07124120 page 3 ol7

AO 2158(Rev.02/18) Judgrnent in a Criminal Csse
Shcet 3

-

Supsyiscd Rclcssc

Judgmcnl-Pagc

DEFENDANT: MONTARIUS MONTRAEL SHABAzz
CASE NUMBER: l:t9cr52HSO-RHW-001
SUPERVISED RELEASE
Upon release from imprisonment, you

will

be on supcrvised release for s term

of

:

three (3) years as to Count 1s of the Superseding lndictment.

MANDATORY CONDITIONS

1.
2.
3.

You must not commit another fedcral, state or local crime.
You must not unlawfully possess a controllcd substance.
You must refrain from any unlawful use of a controlled Substance. You nrust submit to one drug test within l5 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the courr.

!
4.

E

Thc above drug testing condition is suspcnded, based on the court's determinarion that you
pose a low risk of future substance abuse. 6heck tfapplicabte)

You must make restitution in accordance rvith l 8 U.S.C.

grs

3663 and 36634 or any other statute authorizing a sentence

restitution. ftheck if opplicabte)
6.

d
B

7.

E

5.

you must cooperate in the collection of DNA as directed by the probation
officer.

@heck

of

if appticabte)

You must comply with the reguirements of the Sex Offender Registration and Notification Acr (34 U.S.C. g 20901, et seq.) as
directed by the probation offieer, the Burcau of Prisons, or any siate sex offender registration ogin.y in the iocation wheri you
reside, work, are a student, or were convictcd of a qualiffing offense. (check tf applkabte)
You must participate in an approved progrom for domestic violencc.

(chec* toppltcabte)

You must comply with the standard conditions that have been adopted by this court as wcll as with
any other conditions on the atrached

page.

Case

1:

19-cr-00052-HSO-R HW Document

AO 2458(Rev. 02/18) Judgmcnr in
Shcct 3A

-

a

53

Filed 0712412O Page 4 of 7

Criminal Case

Supcrvised Rcleasc

DEFENDANT: MONTARIUS MONTRAEL sHABAzz
CASE NUMBER: l:t9cr52HSO-RHW-00t

STANDARD CONDITIONS OF SUPERVISION
As part ofyour supervised.release, you must c-omply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identifuihe mininrum tools needed by probition
oflicers to kcep informed, report to thc court about, and bring about improvements in your conduct and condition

l.

You must report to the probation office in the federaljudicial district where you are authorizcd to reside within 72 hours of your
rclcasc from imprisonnrcnt, unlcss the probation officcr instructs you to rcport to a diffcrcnt probation oflice or within a diffcrent time

Z,
,
3.

Aftcr initially reporting to thc probation ofTice, you will rcccivc instructions from thc court or the probation officer about how and
when you must report to the probation oflicer, and yorr must report to the probation officer as instructed.
You must not knowingly leave the federaljudicial district wheie you are authorized to reside without fint getting permission from the

frame.

court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
5.
You must liveat a-place alprovlO by the probati6n'officlr. If you plan to change where you live or anything about your living
anangements (such as the pcople you live with), you must notifu the probation officer at least l0 days before the change. If notifying
the prob-ation officer in advance is not possible due to unanticipated iircumstances, you rnust noti$-the probation officer wittrin i2 hours ofbecoming aware ofa change or expected change,
6.
You must allow the probation ofTiccr_to visit you at anytime at your homc or elsewhcrc, and you must permit the probation officer to
take any items prohibitcd by thc conditions of your supcrvision ihat he or she observcs in plain vicw.
7.
You must w-ork full time (at le-a91 30 hours per week) at a lawfrrl qpe of employment. unless the probation officer excuses you from
doing so. Ifyou do not have full+ime employment you must try ro find full-rime employmcnt, unless the probation officer excuses
you from doing.so' lfyou plan to change.where y-o,u work or ilnything about your woik (such as your posiiion or yourjob
responsibilities),.you must no.tiry the probation officer at least I 0 days befori the change, tf noti[ringitre probation off,.et ut teast I 0
lays i1 advance is not possible due to unanticipated circurnstances, you must notiry thd probation officer ivithin 72 hours of
becoming aware ofa changc or cxpccted change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicatc or interaciwith that person withbut fi'rst getting the permission of the
probation officer.
you are anested or questioned by a law enforcement officer, you must notis the probation officer within
9.
72 hours.
ff
10. You must not own, po.s_sess, or havc sccess to a firearm, amnunition, destructivc device, or dangerous
weapon (i.e., anyhing that was
dcsigned, or was modified for, thc specific
Pypose of c_ausing bodily injury or death to anothcr ierson such as nrurchaliurs or-tasers).
lt. You must not act or make any agreetnent with
L law enforcerient agbncy to act as a confidentiaihuman source or informant without
first getting the permission oFthe court.
t2. If the probation officer determines thatyou-pose a risk to anolher person (including an organization), the probation
officer may
require you to notifothe person about the-riik and you.must gorplr with ihat instriction.-Ttre ptouation bffi.e,
roy contact tie
person and_confirm that you have notified the person about the riili.
13. You ntust follow the instructions of the probation officer rclatcd to the conditions of supervision.

4.

U.S" Probation

Office Use Only

A U'S' probationofticer has instructcd mc on the conditions spccificd byrhc court and has providcd rne
with a written copy of this
iudgmcnt conraining these conditions. For further infomration'rcgarding ttreic condirions, sie Oriiiirt oy iritatiii
oili,,|iirua

Release Cond ilions, available at: $a!'\\,, r.tsceurls,gov.

Defendant's Signature

Date

Case 1:19-cr-00052-HSO-RHW Document

53 Filed 07124120 Page 5 oI7

AO 2458(Rev. 02/lE) Judgment in o Criminal Cosc
Sheet 3D

--

Supewised Rclcasc

DEFENDANT: MONTARIUSMONTRAELSHABAZZ
CASE NUMB!f,1 I :l9cr52HSO-RHW-O0t

SPECIAL CONDITIONS OF SUPERVISION
l.

The defendant shall particiPate in a program of testing andlor treatment for drug abuse as directed by the United States Probation
Officer. If the defendant is enrolled in a drug treatment program, he shall abstain from consuming alcohol and shall continue
abstaining for the remaining period of supervision. The defendant shall contribute to the cost of treatment in accordance with the
probation offi ce co-payment pol icy.

2.

In the event that the def€ndant resides in, or visits, a jurisdiction where marijuana or marijuana products have been approved,
legalized, or decriminalized, the defendant shall not possess, ingest, or otherwise use marijuana or marijuana products unless
prescribed by a licensed medical practitioner and for a legitinrate medical purpose.

3. The defendant shall not possess, ingesl, or otherwise use a synthetic narcotic or synthetic cannabinoid unless prescribed by

a

licensed medical practitioner and for a legitimate medical purpose.

4. Thedefendantshallnotincurnewcreditchargesoropenadditionallinesofcreditwithouttheapprovaloftheprobationoffice,
unless the defendant is in compliance

with the installment payment schedule,

5. The defendant shall provide the probation ofllce with access to any requested financiat information.

6. The defendant shall participate in a program of Mental Health Treatment for anger
7. The defendant shall submit his person, house, residence, vehicle,
search conducted by a United States Probation

issues.

papers, property, electronic communication devices" or office to a

Officer, Failure to submit to

a search may be grounds for revocation of release. The
defendant shall warn any other occupants that the premises may be subject to searches pursuanl to this condition. An officer may
conduct a search Pursuant to this condition only when reasonable suspicion exists that the defendant has violated a condition ofhis
super"rision and that the areas to be searched conlain evidence of this viotation. Any search must be conducted at a reasonable time
and in a reasonable manner.

Case 1:19-cr-00052-HSO-RHW Document

53

Filed 07124120 Page 6 of 7

AO 2458(Rev. 02/18) Judgment in a Criminal Case

DEFENDANT: MONTARIUS MONTRAEL SHABAZZ
CASE NUMBER: l:l9cr52HSO-RHW-00t

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 7.

$

TOTALS

JVTA

Assessmcnt
t 00.00

Assessment*

Restitution

Fine

$

5,000.00

D

The determination of restitution is defened until
after such determination,

tr

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

An

Amended

Jdgnent in a Criminal

Ccue (Ao 24sc)

will be entered

If thc defendant makcs a partial paymcnt, cach paycc shall receive an approximately proportioned payment. unlcss specified otherwise in
colunin belorv. Howcver, puiiuant to l 8 U,s.e . $ :a64dt,'aii nohf;aiiiiiiicll-6miiii-uti piiii

tl?1,liily,iJflSi t1ffi:.irTXgs.lraynent
Name of Pavee

Total Loss**

TOTALS

Restitution Ordcrcd

0.00

Prioritv or Percentaqe

0.00

D

Rcstitution amount ordcred pursuant to plca agrcement $

tr

The defendant must pay interest on restitution and a fine of more than $2,500, unless the rcstihttion
or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to I 8 U.S.c. g 36 I 2(0. All of rhe paymenr
options on Sheet 6 may be subjecr
to penalties for delinquency and default, pursuant to l g U.S.C. 3612(g),
S

il

The court determined that the defendant docs nol have the abiliry to pay interesr and it is
ordered that:

d
tr

the il fine tr restitution,
for the tr finc tr rcstitution is rnodified as follows:

the intercsi requirement is waived
the interest requirement

for

for-Victims of Trafficking Act of 2015, pub. L. No. I l4-22.
tor the total amount of losses are reouirqd under Chapters I 09A, I 10, I l0A, and I I 3A
of Title I g for offenses comrnitted on or
afler SeptEmber 13, t994, bur beioie Aphi jj, tiso.
l-Jgqtiqg
-r lnolnss

r
Case 1:19-cr-00052-HSO-RHW Document

53

Frled 07124t2O page 7

ol7

AO 2458(Rev, 02/18) Judgmenr in a Criminal Case
Shcet 6

-

Schedutc of Payurcnts

DEFENDANT: MONTARTUSMONTRAELsHABAzz
CASENUMBER:

Judgnrent

- Page 7

of

7

1:19crS2HSO-RHW_001

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, paymcnt of the rotal criminal moncrary penalties is
due as follows:

A f,

Lump sum paymenr of

D

tr

B
c
D
E

not later than
in accordance

$

5,100.00

due immediately, balance due

E C, tr D, n

,or

or ! F below; or
f, Payment to begin immediately (nray bc combined with E C, E D, or El F below); or
El Payment in equal
@.g., weekly, monrhly, quorterv installments of $
over a period of
(e.g., months oryears),to contmence
(e.g., 30 or 60 days) after the date of this judgment; or
il Payment in equal monthly e,g., weekly, monrhry, quarterlyl insrailmenrs of $ 100.09_ over a period of
3-6-19{!1 1".g.,
i yu*g,to conlmence
30 or 60 days) aftir retease from imprisonmenr to a
^oriii
-lgd"L ft.g,,
tcrm ofsupervision; or
tr Payment during the term of supcrvised rclcase will commence within
(e.g..30 or 60 days)aftcr release from
with

E,

imprisonment' The court will set the paymenl plan based on on assessriirt of ttre defendant's ability to pay at that time;
or

F f,

Special instnrctions regarding the payment of criminal monetary penalties:
ln the event that the fine is not paid in full prior to the termination of suporvised release,
the defendant is ordered to enter into a
written agreernent with the Financial Litigation Unit of the U.S. Attorney's Office for paiment of
the remaining oadn;
Additionally, thE value of any future discovered ass€ts may be applied"to offset the baiance of
criminal ronit"ty fenatties, The
defendant may be included in the Treasury Offset Program attowihg qualified federar Otnints
to be applied to oifiet the balance
of criminal monetary penalties.

H[:]'iflf,S5**qrffrjl*f,if'$d.llr;;ffi[{Y{'i1*ijipjl8'"it?HtrJtith?uif;*itf;lr'?tii:i'61rr,tirti:il:fys,'#Tilt
The defendant shall receive credit for atl payments previously made toward any crirninal
monetary penalties imposed.

tr

Joint and Several
Defcndant and Co-De fcndant Names and Case Numbcrs (including
delendant number),Total Amount, Joint and Sevcral Amount,
and corresponding payee, if ippicipiiat-ti" ----

tr

The defendant shall pay the cost ofprosecution.

E

The dcfendant shall pay the following court cost(s):

il

The defendant shall forfeit the defendant's interest in rhe following
properry to the Unired Srares:

as stipulated in the Agreed Upon Preliminary Order of Forfeiture
filed on November 13, 201g.

if,tiJ:l'&jTi'*iiBn}?t,ii-:ltfliiimxi::;:il,$Til'fi.,tilfrl.t'liiE,iEiLl:?,l,f,flilil"'f:*t,t"ibl.l:.#,:l#f

lfii:rl'lcrRar

(5) nne

